Audit of USAID/Senegal’s Casamance Conflict
Resolution Program

7-685-03-003-P

May 30, 2003




                 Dakar, Senegal
May 30, 2003

MEMORANDUM

FOR:           Patrick Fine, Acting Director, USAID/Senegal

FROM:          Lee Jewell III, RIG/Dakar /s/

SUBJECT:       Audit of USAID/Senegal’s Casamance Conflict Resolution
               Program (Report No. 7-685-03-003-P)


This memorandum is our final report on the subject audit. In finalizing this report,
we considered management’s comments on our draft report and included them in
Appendix II.

This report contains three recommendations. Based on appropriate action taken by
the Mission, management decisions have been reached, and all recommendations
are considered closed upon issuance of this report. No further action is required of
the Mission.

I appreciate the cooperation and courtesies extended to my staff during the audit.




                                                                                       1
(This page intentionally left blank)




                                       2
Table of   Summary of Results                                                  5
Contents
           Background                                                          6

           Audit Objectives                                                    7

           Audit Findings                                                      7

                   Is USAID/Senegal’s Casamance Conflict Resolution Program
                   Achieving its Planned Objectives?                           7

                      Indicators Should be Supported with Appropriate
                      Documentation                                           9

                      Two Indicators Need to be Clarified                     11

                      Information Included in Annual Report Needs to
                      be Reviewed and Verified for Accuracy                   12

           Management Comments and Our Evaluation                             13

           Appendix I – Scope and Methodology                                 15

           Appendix II – Management Comments                                  17




                                                                                   3
(This page intentionally left blank)




                                       4
Summary of   The Casamance Conflict Resolution Program, USAID/Senegal Special Objective
Results      02, seeks to improve conditions for peace and reconciliation in the Casamance
             region via economic, social and political development. A major constraint
             affecting development in the Casamance region is its nineteen-year armed
             separatist struggle that has lead to a sharp decline in the economic and social well
             being of the population. Progress towards a resolution to the conflict in the
             Casamance remains an ongoing process. Non-governmental organizations (NGO)
             continue to play key roles in peace building activities and have stimulated public
             pressure to resolve the conflict. USAID is working with its implementing
             partners to identify safe but effective ways to expand activities in the region. (See
             page 6.)

             The objective of this audit was to determine if USAID/Senegal’s Casamance
             Conflict Resolution Program is achieving its planned objectives. (See page 7.)

             In general, the Casamance Conflict Resolution Program is achieving its intended
             objectives. The program has reported results of meeting or exceeding targets for
             11 out of 14 intermediate and key intermediate results. Even though documentary
             support for these indicators at the NGO level may not be sufficient, based on what
             was observed during audit site visits and meetings with partners, it was
             determined that progress is being made in achieving the objectives. Thorough
             monitoring of the program takes place with both the Special Objective
             Coordinator and the Casamance Liaison extremely active in site visits and
             meeting with the implementing partners. During numerous site visits performed
             by the auditors, testimony was heard from beneficiaries regarding the positive
             impact of the activities. In addition, several cultural weekends have taken place
             that have brought all factions involved in the conflict together including the
             military, rebel forces, and government officials. (See pages 7 and 8.)

             However, several issues were noted that need to be addressed by the Mission.
             Documentation at the partner level of results reported was not sufficient for some
             of the selected indicators. We recommend that the Mission periodically check
             that the supporting information is accurate and complete. (See pages 9 through
             11.)

             Another issue noted was lack of clarity for two indicators. We recommend that
             the Mission clarify the indicators in question. (See pages 11 and 12.)

             A third issue noted was that the reporting of incorrect information in the
             Mission’s annual performance report. We recommend that the Mission develop
             procedures to ensure the accuracy of data included in the annual report. (See
             pages 12 and 13.)




                                                                                                5
Background   The Casamance Conflict Resolution Program, USAID/Senegal Special Objective
             02, formerly Casamance Recovery Development Program, seeks to improve
             conditions for peace and reconciliation in the Casamance region via economic,
             social and political development. There are three key intermediate results
             envisioned in the program, namely 1) improved standards of living for the
             affected population, 2) increased self-reliance for local development actors, and 3)
             improved conditions for local level conflict resolution. The program is based on a
             multisectoral approach which emphasizes 1) income generation including micro
             finance and training, 2) promotion of cash crops, 3) capacity building for local
             non-governmental organizations, 4) peace and reconciliation efforts, and 5)
             infrastructure and rehabilitation. USAID/Senegal’s 2002 Annual Report showed
             that the program has had important effects in the region and the Mission met its
             performance targets.

             The Casamance region is an important focus area for the economic development
             of Senegal due in part to its rich tropical environment. The region is centrally
             located to facilitate trade with neighboring countries and has some of the largest
             traditional markets in Senegal. At one time, Casamance was also well known as a
             major tourist destination in Senegal. Currently, a major constraint affecting
             development in the Casamance region is its nineteen-year armed separatist
             struggle that has lead to a sharp decline in the economic and social well being of
             the population. Fighting between the Government of Senegal soldiers and rebels
             for the Movement of Democratic Forces for the Casamance has adversely affected
             the potential of the Casamance to contribute fully to the economy of Senegal. It is
             estimated that the conflict has cut agricultural production by 50 percent. The
             tourism industry has been devastated by the conflict with many of its 16,000
             employees being dismissed as a result of the continuing struggle. In addition, it is
             estimated that thousands of refugees have fled Casamance to neighboring
             countries such as Guinea-Bissau and The Gambia.

             Progress towards a resolution to the conflict in the Casamance remains an
             ongoing process. Non-governmental organizations continue to play key roles in
             peace building activities and have stimulated public pressure to resolve the
             conflict. Nevertheless, armed attacks are frequent in some parts of the Casamance
             and make it difficult for USAID staff to monitor activities outside the city of
             Ziguinchor. USAID is working with its implementing partners in various
             program areas to identify safe but effective ways to expand activities in the
             region.

             Per USAID records, funding for the program totals $9.6 million since 1999. The
             audit focused on information and data from fiscal years 2001 and 2002.




                                                                                               6
Audit Objective   In accordance with its fiscal year 2003 Audit Plan, The Regional Inspector
                  General, Dakar (RIG/Dakar) performed this audit to answer the following
                  objective:

                  Is USAID/Senegal’s Casamance Conflict Resolution Program achieving its
                  planned objectives?

                  Appendix I contains a complete discussion of the scope and methodology of the
                  audit.

                  Is USAID/Senegal’s Casamance Conflict Resolution Program achieving its
Audit Findings    planned objectives?

                  In general, the Casamance Conflict Resolution Program is achieving its intended
                  objectives. USAID/Senegal has reported meeting or exceeding targets for 11 out
                  of 14 intermediate results and key intermediate results. Even though documentary
                  support of these indicators at the nongovernmental organization (NGO) level may
                  not be sufficient, based on observations during audit site visits and meetings with
                  partners, progress is being made in achieving the objectives. Thorough
                  monitoring of the program was taking place with both the Special Objective
                  (SPO) Coordinator1 and the Casamance Liaison2 extremely active in site visits
                  and meeting with the implementing partners. During audit site visits, many
                  partners mentioned that without USAID support, there would not be any programs
                  in the Casamance.




                  Photograph of a woman, who received training by Africare, tending a
                  vegetable garden in the Bignona area. (Photograph taken February 6, 2003)


                  1
                    The SPO Coordinator is responsible for the overall management and coordination of the SPO.
                  The Coordinator is based in Dakar but travels often to the Casamance.
                  2
                    The Casamance Liaison assists the SPO Coordinator through a regional office in Ziguinchor.

                                                                                                                 7
Two key intermediate results “improved standards of living for the affected
population,” and “increased self-reliance for local development actors,” are both
being achieved through numerous activities. The first key intermediate result is
being measured through projects that increase the standard of living for areas
affected by the war that has been occurring in the region. During site visits to
rehabilitation projects, it was observed that entire villages were working to
reconstruct housing that had been previously destroyed. Testimony from villagers
during a visit to Kandialang/Medina Mancagne villages thanked USAID and
Catholic Relief Services (CRS) for the rehabilitation of the villages. In addition,
testimony was also heard from women involved in a village bank. These women
commented that because of the USAID’s support, they have an opportunity to
better their lives and the lives of their families. The second key intermediate
result is being achieved through projects that are giving the local people an
opportunity to become more self-reliant. For example, one project teaches local
villagers how to process cashews into a ready-to-eat form, which can be sold at a
higher price than raw cashews.




Photograph of a home being reconstructed with the help of Catholic Relief
Services and USAID/Senegal in the Madina Mancagne village. (Photo taken
February 5, 2003)

The third key intermediate result, “improving conditions for local level conflict
reduction,” is being met through meetings and cultural weekends. This
intermediate result is aimed at decreasing the conflict that is occurring in the
region. At a meeting convened to discuss the situation in the Casamance,
community leaders expressed a willingness to accept past aggressors back into the
community. In addition, cultural weekends have taken place with representatives
from the groups involved in the conflict participating in activities together. These
activities include dancing, sporting events, and discussion groups. These events
mark a milestone in the region; not long ago, these events would not have been
possible.

Other encouraging factors of the program include the synergy that was already
occurring between various implementing partners.          For example, one

                                                                                  8
implementing partner is teaching local artisans how to manufacture water pumps
that are being used in another implementing partner’s project. In addition,
because of the close relationship between the various implementing partners, two
partners originally not scheduled for meetings with the auditors specifically
requested that the auditors review their field operations and controls.

While the above actions and results show that progress is being made toward the
objectives, several issues were noted that need to be addressed by the Mission.
Implementing partners were unable to provide supporting documentation for
some of the selected performance indicators. In addition, two of the indicators
used for reporting results to the Mission were found to be unclear. Finally, the
annual report contained inaccurate information due to a lack of verification at the
strategic objective (SO) and special objective levels.

Indicators Should Be Supported
With Appropriate Documentation

USAID guidance stresses the importance of high quality, accurate and reliable
results reporting information in order to properly measure results. The
implementing partners did not have sufficient documentation to substantiate
results reported to USAID/Senegal. This lack of supporting documentation was
caused by the lack of understanding by the implementing partners as to what
support was needed as well as a lack of periodic checks on the part of the
Mission. The effect of this is that the Mission is subject to receiving possible
inaccurate, unsupported information that could be used in making decisions.

USAID guidance stresses the importance of high quality, accurate and reliable
results reporting information in order to properly measure results. According to
the Automated Directives System (ADS) 203.3.5.1, data quality standards include
validity, integrity, precision, reliability, and timeliness. Valid data should clearly
and adequately represent the intended result. Data should also be reliable in the
fact that it should reflect stable and consistent data collection processes and
analysis methods over time. Performance Monitoring and Evaluation TIPS
guidance No. 12 states that proper documentation is especially important in an
organization such as USAID where there is turnover in operating units and
objective teams. Documentation ensures the availability of information critical to
the analysis of performance data. Documentation also allows staff to explain their
procedures to those who are seeking assurance that quality standards are being
maintained in the collection and reporting of performance data.

In addition, the U.S. General Accounting Office’s (GAO) Standards for Internal
Control in the Federal Government state that all transactions and significant
events need to be clearly documented, and that the documentation should be
readily available for examination.




                                                                                    9
During visits to four implementing partners, documentation supporting the results
reported to USAID/Senegal was either insufficient or non-existent for some of the
selected indicators. For example:

World Education - World Education reported results on the selected indicator,
“cultural weekends in 100 communities,” using information provided by a local
partner. However this information could not be reconciled with World
Education’s own attendance data, which had participants give their name, village,
function, and signature.

Enterprise Works - Enterprise Works provided self-created spreadsheets to
support the results reported to the Mission for two selected indicators: “kilos of
raw cashews processed per year using improved techniques” and “minimum
number of users of low-cost, efficient treadle and hand pumps for irrigated
horticulture.” However, they could not provide any original documentation to
support the figures in the spreadsheets. Enterprise Works management stated that
they performed monthly visits to acquire the data for the spreadsheets but that the
original documentation was maintained by the artisans.

Africare - Africare was able to provide sufficient documentation for the selected
indicator “number of economic interest groups undertaking one new income
generation activity.” However, for another selected indicator, “improved water
management on agricultural lands through the construction of secondary water
management structures,” Africare could not provide calculations or other data to
support the numbers reported to USAID regarding the number of hectares
positively improved. For the third selected indicator, “number of persons
benefiting from a commercial loan,” Africare provided documentation they
believed supported their figures.         However, in verifying the data, the
documentation could not be reconciled with the reported figures, and Africare was
unable to recreate the calculations used for their report.

CRS - CRS could not provide support for the data reported in their spreadsheet
for the first selected indicator, “number of jobs created.” Furthermore, the
spreadsheet was mathematically incorrect. A miscalculation was found in the
reporting of the second selected indicator chosen, “number of hectares under
sesame cultivation,” which was reported to the Mission. For the third indicator,
“number of infrastructures rehabilitated,” CRS did not have supporting
documentation for the reported September 2002 result.

The lack of documentation was caused by a lack of understanding on the part of
the implementing partners as to what support is needed. Additionally, even
though the Mission has in place procedures for periodically checking data, these
procedures were not fully implemented; a lack of periodic checks of the data also
contributed to the problem.




                                                                                10
By not having proper supporting documentation, decisions may be made with
possibly inaccurate information. The data being reported to USAID/Senegal
could either be under- or overreported, which is then passed on to
USAID/Washington in the annual report. The following recommendation is made
to address the lack of supporting documentation.

       Recommendation No. 1: We recommend that USAID/Senegal
       fully implement existing procedures requiring periodic checks
       of implementing partners to determine that they are
       maintaining appropriate and sufficient documentation to
       support indicator results.


Two Indicators Need to be Clarified

ADS Chapter 203.3.4.2 states that performance indicators must be direct,
objective, unambiguous, and adequate. However, in two instances, performance
indicators established for USAID/Senegal’s Casamance Conflict Resolution
Program did not satisfy those criteria; they were ambiguous and subject to varying
interpretations. This situation arose because management was not aware of the
varying interpretations possible. As a result, those indicators may not be
providing the intended information to the Mission.

Per ADS 203.3.4.2, performance indicators should be direct, objective, useful for
management, practical, attributable to USAID efforts, timely, and adequate. With
regards to indicators being direct, the performance indicators should closely track
the results they are intended to measure. In being objective, the indicator should
be unambiguous about what is being measured.

During discussions with two of the implementing partners, questions were raised
regarding two indicators. The two instances are described below.

   •   The indicator for the number of communities participating in cultural
       weekends by World Education was subject to different interpretations.
       World Education management used the word “community”
       interchangeably with the word “village” both during the meeting as well
       as in literature regarding cultural weekends. The listing from a local
       partner organization stated the list of “villages” that participated in cultural
       weekends. However, the list was composed of “groups” that have a chief.
       For example, the village Cagnoute was counted twice among the villages
       participating in the weekend. Per explanation from World Education
       management, the village is divided into two sectors with two different
       leaders. As such, the village was on the list twice as people attended from
       each sector.




                                                                                    11
   •   The second instance came about when Enterprise Works asked for
       clarification regarding one of their indicators.      Enterprise Works
       management was unclear on how the number of individuals active in
       cashew processing using improved techniques should be calculated given
       the changes in employees based on the work load during the time period.

The lack of clarity in the indicators was caused by misinterpretations from each of
the parties involved. USAID management did not realize the indicators were
subject to different interpretations.

By having unclear indicators, the results being reported may not reflect the
intended information. The recommendation below addresses the issue with the
two indicators.

       Recommendation No. 2: We recommend that USAID/Senegal
       clarify how indicators for the Casamance Conflict Resolution
       Program be measured.


Information Included in the Annual Report
Needs to be Reviewed and Verified for Accuracy

USAID’s guidance stresses the importance of high quality, accurate, and reliable
results reporting information in order to properly measure results. However,
inaccurate information was included in the 2003 Annual Report, caused by a lack
of review and verification of information reported to the program office by the
SPO Coordinator. The effect is that USAID/Washington did not have accurate
information regarding program results.

USAID’s ADS and Performance Monitoring and Evaluation TIPS guidance
stresses the importance of high quality, accurate, and reliable results reporting
information in order to properly measure results. FY 2003 Annual Report
Guidance gives specific instructions regarding data quality that is used to
determine if objectives have been met. Per ADS 203.3.8.1, the annual report is
the Agency’s principal tool for assessing program performance on an annual basis
and communicating the information to higher management levels. In addition,
GAO’s Standards for Internal Controls in the Federal Government state that all
transactions and significant events need to be clearly documented, and that the
documentation should be readily available for examination.

Supporting document provided by the SPO Coordinator was reviewed for two
indicators included in the annual report: “number of jobs created” and “hectares
of land in use due to SPO funding.” There were miscalculations in the SPO
Coordinator’s spreadsheets supporting the number of jobs created that was
submitted to the program office. In fiscal year 2001, the number was
underreported, and in fiscal year 2002, the result was overreported by about one-


                                                                                12
                 third. This overreporting was included in the 2003 Annual Report. In addition,
                 according to the SPO Coordinator, information published in the annual report
                 regarding the number of hectares positively affected by dike construction was
                 later determined to be inaccurate; SPO funding was used to construct dikes in
                 order to improve the usability of the land.

                 Inaccurate information reported to the program office by the SPO Coordinator
                 was included in the annual report due to a lack of review and verification of the
                 information. Per discussion with management, this lack of review was due to
                 time constraints in the reporting process.

                 The effect of inaccurate information being included in the annual report is that
                 USAID/Washington does not have correct information regarding the results of the
                 program. To address the problem, the following recommendation is made.

                        Recommendation No. 3: We recommend that USAID/Senegal
                        develop and implement procedures to verify data included in the
                        annual report.




Management       In response to the draft report, USAID/Senegal agreed with all of the findings and
                 recommendations in the draft audit report. Based on appropriate action taken by
Comments and
                 the Mission, all recommendations are considered closed upon the issuance of the
Our Evaluation   final report. The attachments to management comments are not attached in this
                 audit report.

                 Recommendation No. 1 recommends that the Mission fully implement existing
                 procedures requiring periodic checks of implementing partners to determine that
                 they are maintaining appropriate and sufficient documentation to support
                 indicator results. The Mission concurred with this recommendation and has taken
                 steps to address it which include planning a workshop in mid-June for all
                 implementing partners to clarify the type of supporting documentation that is
                 required to be kept. In addition, the Mission has set up a monitoring schedule
                 with a minimum of one data quality and collection check per quarter for each
                 partner.

                 Recommendation No. 2 states that the Mission needs to clarify indicator
                 measurements for the program. Both indicators noted in the report have been
                 clarified with the appropriate implementing partner. In addition, the Special
                 Objective Coordinator has sent a letter to all partners stressing the importance of
                 data quality and support documentation. Any questions regarding indicators will
                 be discussed during the mid-June meeting with all partners.



                                                                                                 13
Recommendation No. 3 recommends that the Mission develop and implement
procedures to verify data included in the annual report. To address this
recommendation, the Mission issued a Mission Order on Monitoring and
Reporting Program Performance. Procedures have been created requiring the
Monitoring and Evaluation Specialist to assure that data reported in the Annual
Report meets the quality standards including validity, reliability, timeliness,
precision/accuracy, integrity, completeness, and consistency.




                                                                            14
                                                                                    Appendix I



Scope and     Scope
Methodology
              The Regional Inspector General, Dakar conducted this audit in accordance with
              generally accepted government auditing standards. The purpose of the audit was
              to determine if USAID/Senegal’s Casamance Conflict Resolution Program is
              achieving its planned objectives. The audit was conducted at USAID/Senegal in
              Dakar from January 17 to February 21, 2003. Site visits were performed in the
              Casamance region of Senegal from February 4 to 11, 2003 with visits to four
              implementing partners for testing: World Education, Enterprise Works, Africare,
              and Catholic Relief Services.

              Total program funding is equal to $9.6 million since 1999. The audit focused on
              information from fiscal years 2001 and 2002.

              The audit scope primarily included identifying performance indicators used by
              USAID/Senegal to assess whether the Casamance Conflict Resolution Program is
              achieving its intended objectives. The audit included reviewing the Mission’s
              achievement of its reported results and assessing the data quality of the
              performance data for fiscal years 2001 and 2002. We assessed management
              controls governing the management of the program using USAID guidance
              including the Automated Directives System, mission reports, and other internal
              policies and procedures. In addition, the scope of this audit included a limited
              review of the internal control structure associated with the management of
              activities by implementing partners.

              Methodology

              While conducting fieldwork, we performed limited tests of compliance with
              USAID procedures with regard to results reporting both at the Mission level as
              well as at the implementing partner level. At the implementing partner level, we
              selected four partners and performed testing of the results reported to the Mission.
              We then examined at the Mission level the roll-up of these results into a
              consolidated result that was reported to the Program Office. These controls and
              our review included examining supporting documentation to determine the
              accuracy of the results reported. In addition, we reviewed the general controls
              over the monitoring of the activities both by the implementing partners and by the
              Mission staff.

              In assessing data quality and verifying and validating the performance data to
              source documentation, we used a threshold of one percent for transcription
              accuracy and five percent for computation accuracy.



                                                                                               15
(This page intentionally left blank)




                                       16
                                                                                      Appendix II


Management
Comments:                                                                    U.S.A.I.D. / SENEGAL




             DATE:           April 29, 2003

             TO:             Lee Jewell, III RIG/Dakar

             FROM:           Donald Clark, Director, USAID Senegal /s/

             SUBJECT:        Response to Draft Memo on USAID Audit results and Recommendations




             The purpose of this memo is to reply to the draft report on the Audit of USAID/Senegal’s
             Casamance Conflict Resolution Program (Report No.7 -685-03-00X-P).

             Prior to responding to RIG’s findings, USAID has two general comments on the draft:

             1)      Funding level, GOS contribution. The current funding level is $9,567,036, not
             $10 million. (as stated on page 4). The Government of Senegal does not contribute to
             the Casamance Conflict Resolution Program. A waiver was signed on this subject, copy
             attached.

             2)       Word use. Under Audit Findings, page 7 second paragraph, RIG states that “the
             annual report contained inaccurate information due to a lack of review at the strategic
             objective (SO) and special Objective Levels. This is an inaccurate statement. The data
             for the annual report were reviewed both by the Program office and the Monitoring and
             Evaluation specialist, as is the case for all USAID SOs and SPOs. The error occurred due
             to a mistake in a formula on a spreadsheet. USAID recommends that “lack of
             verification” replace “lack of review”. This better conveys the nature of the error which
             occurred.


             RIG Finding 1: Lack of Documentation

             Condition:       During visits to four implementing partners, we noted that
             documentation supporting the results reported to USAID/Senegal was either insufficient
             or non-existent.

             Cause: The lack of documentation seemed to be caused by a lack of understanding on
             the part of the implementing partners as to what support is needed.



                                                                                                   17
Effect: By not having proper documentation, the data being reported to USAID/Senegal
could either be under or over reported, which is then passed on to USAID/Washington in
the annual report.

RIG Recommendation: That USAID/Senegal fully implement existing procedures
requiring periodic checks of implementing partners to determine that they are
maintaining appropriate and sufficient documentation to support indicator results.

USAID Response to Recommendation No 1: The SPO has repeatedly raised the issue
of data quality with partners:

1.      On May 16, 2001, the SPO held an M&E workshop in Ziguinchor attended by
representatives from Africare, Dyna Enterprise, Handicap International, Catholic Relief
services (CRS), APRAN, UNICEF, and ASACASE. It is worth noting that Enterprise
Works (EW) and World Education (WE) were not represented because at that time they
did not have cooperative agreements with the SPO. The data verification was specifically
underscored through topics such as (a) double counting; (b) methodology consistency; (c)
data completeness; and (d) documentation of procedures for data collection, processing
and storage.

2.       From January 2-5 2002, Monitoring and Evaluation Specialist was in Ziguinchor
to carry out spot checking on quarterly reports from implementing partners. The SPO
assistant and M &E specialist visited CRS, Africare and Enterprise Works. The purpose
of the trip was to assess a) existence of procedures for data collection b) data record
keeping c) data storage d) ease of data availability; e) existence of data collection tools
and f) data transcription process. Also verified were calculation of numbers reported as
totals and the accuracy of the data in quarterly reports. At the time of the mission,
recommendations were made to partners for improvements in their data
collection/verification systems. It is worth noting that implementing partners like CRS
indicated this visit on page 3 of their January-March 2002 quarterly report. CRS
responded to the recommendations made to improve their information system in the
following terms “While CRS does not expect to develop an M&E manual specifically for
the Casamance project such documentation does in fact exist. The sub-office in
Ziguinchor, however, does not currently use this CRS management tool.”

Furthermore, CRS Ziguinchor staff were not willing to write memoranda or reports after
every contact with sub-grantees, but preferred to develop checklists of indicators to help
us monitor sub-grants and to use these to formulate both feedback to sub-grantees and
progress reports to CRS and USAID.”

3.       The February 19-22, 2003 trip to assist World Education in improving their
monitoring system was a means to educate peace building partners in M&E. In peace
building context, we believe that the topic is extremely sensitive and it would be difficult
for World Education to require that all attendees at a cultural weekend sign an attendance
list. In this respect, we will urge World Education to write reports that account for
attendees included in the list as well as those estimated. For the estimates the report will
clearly disclose the data limitations.

4.      To summarize, USAID is committed to implementing existing M&E procedures
requiring periodic checks of implementing partners as demonstrated by the examples
given above. The M&E specialist has done two spot-checks within a two-year

                                                                                         18
timeframe. This periodicity seems to be consistent with ADS requirements of “at least
one assessment within a three-year span of time”.

To resolve this finding, USAID has taken the following management actions:

1)      Planned a workshop in mid-June with all implementing partners. USAID will
clarify again to what kind of support documentation is required to meet USAID
requirements. Partners will be advised to keep separate monitoring files/support
documentation for each indicator.

2)     Adherence of implementing partners to correct data collection procedures will
henceforth be routinely monitored, with a minimum of one data quality and collection
check per quarter for each partner. These visits will primarily be carried out by the
Casamance Special Objective Liaison, but the Casamance Special Objective Coordinator
and the Monitoring and Evaluation Specialist will participate when they are in the
Casamance.

Support documentation: workshop handouts, trip reports, team memo on data
verification (copy attached), letter to implementing partners on data requirements (copy
attached).

RIG Finding 2: Two Indicators are Not Clear

Condition:       During discussions with two of the implementing partners, questions
were raised regarding two indicators. These were: the indicator for the number of
villages participating in cultural weekends by World Education was subject to different
interpretations. The listing from AJAEDO is composed of “communities” that have a
chief. For example, the village Caghoute is listed twice. Per explanation from World
Education management, the village is divided into two sectors with two different leaders.
In addition, Enterprise Works asked for clarification regarding one of their indicators.
Management was unclear on how the number of individuals active in cashew processing
using improved techniques should be calculated given the changes in employees based on
the work load.

Cause: The lack of clarity in the indicators was caused by misinterpretations from each
of the parties involved. Management at Enterprise Works stated that they felt the
indicator could be interpreted in several ways. With World Education, management had
a different interpretation from the auditors.

Effect: By having unclear indicators, the results being reported may not reflect the
intended information from the Mission.

Recommendation:        RIG recommends that USAID/Senegal clarify how indicators for
the Casamance Conflict Resolution program be measured.

To resolve this finding, USAID has taken the following management actions:

1)      World Education responded to RIG concerns about data quality in a letter dated
March 25, 2003. World Education states that additional back-up documents have been
obtained to support their figures on attendance at cultural weekends. The SPO accepts the
World Education definition of communities as groups identifying with one leader – in

                                                                                      19
accordance with local traditions. If, as in the case of Caghoute, there are two leaders in a
village, the name will be Caghoute 1 and Caghoute 2, and this will be noted in the data
collection.

2)       The indicator on employment creation has been modified to take into account
seasonal changes. The SPO decided that if a workshop employs 10 people during the full
season and only 5 during the off season, the larger number will be recorded. The reason
for this is that the employment generation indicator measures both temporary and
permanent employment. In this case, 5 employees could accurately be reported as full
time, and the 5 extra during the high season would be temporary. We have shared this
redefinition with Enterprise works so that all partners use the same interpretation of the
indicator.

3)       The SPO has sent a letter (attached) to partners stressing the importance of data
quality and support documentation, and has asked all partners to send specific questions
to USAID, to ensure that during the mid-June meeting of partners, all indicators will be
clarified and agreed upon.

Support documentation: World Education letter (copy attached), letter to partners
clarifying definitions of indicator calculations/data quality requirements and
announcement of mid June M and E workshop/meeting (attached).


RIG Finding 3: Inaccurate Information in Annual Report

Condition:       RIG reviewed supporting document provided by the SPO Coordinator
for two indicators included in the annual report (number of jobs created and number of
hectares improved). We found that there were miscalculations in the spreadsheets
supporting the number of jobs created. In FY 2001, the number was under-reported, and
in FY 2002, the result was over-reported by about one-third. This over-reporting was
included in the 2003 Annual Report.

In addition, the SPO Coordinator informed us that information published in the annual
report regarding the number of hectares positively affected by dike construction was later
determined to be inaccurate.

Cause: Inaccurate information was included in the annual report due to a lack of review
of the information reported by SO and SPO team leaders. Per discussion with
management, this lack of review was due to time considerations in the reporting process.

Effect: The effect of inaccurate information being included in the annual report is that
USAID/Washington is receiving incorrect information.

Recommendation: That USAID/Senegal develop and implement procedures to verify
data included in the annual report.

To resolve this finding, USAID has taken the following management actions:

1)      A Mission Order on Monitoring and Reporting Program Performance (number
IX.1.2 dated April 2, 2003) has become effective since the Audit. The concerns raised by
RIG are addressed in the paragraph on Performance Data, which reads as follows: “The

                                                                                         20
Monitoring and Evaluation Specialist is also responsible for assuring that data reported in
the Annual Report meets quality standards such as validity, reliability, timeliness,
precision/accuracy, integrity, completeness, and consistency. To this end s/he may a)
review reports from implementing partners or secondary sources; b) conduct site visits; c)
supervise field surveys; d) cross check with other data sources/users; and e) verify data in
annual Report narratives. The goal is to ensure that SO/SPO team is aware of data
strengths and weaknesses, and to the extent which it can be trusted when making
management decisions.”

Support documentation: Mission order IX.1.2: USAID/Dakar Framework for Monitoring
Performance

 Summary of attachments:
•    Memo waiving Government of Senegal Contribution
•    Team Memo on data collection
•    Letter to partners on Data quality and announcing June meeting
•    World Education letter on back up documentation for indicators
•    Mission order IX.1.2: USAID/Dakar Framework for Monitoring Performance




                                                                                         21
